u.s. Department of Justice
Officeof the InspectorGeneral




A Review of the FBI's Actions in
ConnectionWithAllegations Raised
By ContractLinguist Sibel Edmonds




                   UNCLASSIFIED SUMMARY


                                Office of the Inspector General
                                Office of Oversight and Review
                                                  January 2005
I.    INTRODUCTION

        This report describes the Office of the Inspector General's (OIG)
investigation of allegations raised by Sibel Edmonds, a former Contract
Linguist (CL) for the Federal Bureau ofInvestigation     (FBI). Edmonds worked
for the FBI from September 20,2001, until March 2002, when her services as a
CL for the FBI were terminated.    Before that termination,    she had raised a
series of allegations regarding the FBI's CL program, including security
concerns about actions by a co-worker related to potential espionage.

        Our review found that Edmonds had written several memoranda to her
supervisors raising her concerns about the co-worker. Edmonds prepared one
of her memoranda,    dated February 8,2002, on her home computer, after first
obtaining a supervisor's permission to write it at home. According to the FBI,
that memorandum      contained classified information, and Edmonds' use of her
home computer to process classified information was a security violation.

       Edmonds' supervisor referred Edmonds' February 8 memorandum
containing her allegations to a Security Supervisor. The Language Supervisor
also reported Edmonds' security violation to the Security Supervisor.   After a
cursory investigation of Edmonds' allegations, the Security Office concluded
that Edmonds' allegations against the co-worker were unsubstantiated     and
that Edmonds' security violation was inadvertent.

       Edmonds continued to complain about the co-worker, and asserted that
FBI supervisors were protecting the co-worker. Edmonds also raised her
concerns to higher-level officials in the FBI, to the OIG, and to Congress. In
addition, Edmonds raised other allegations regarding the language program to
the bIG. For example, Edmonds made allegations of travel voucher fraud and
time and attendance abuse. Edmonds also alleged that the FBI had hired
unqualified personnel and used one of them to translate military interviews
despite that person's weak language skills.

       On March 22, 2002, the FBI stopped using Edmonds' translation
services, and on March 26 the FBI terminated her contract.   Edmonds
complained that the termination was in retaliation for her complaints, and the
OIG agreed to investigate this matter.


II.   SCOPE OF OIG INVESTIGATION

       During the course of our investigation, the OIG interviewed more than 50
individuals, including FBI employees, contractors,  and Department of Justice
(DOJ) officials. The OIG interviewed Edmonds on three separate occasions, in
April, June, and November of 2002. On January 28, 2004, the OIG wrote to
Edmonds' attorney offering to meet with Edmonds again if she had additional
relevant information to provide to the OIG. Her attorney said that Edmonds
did not believe she had anything additional to provide the OIG, and the
attorney did not request an additional meeting.

       In addition, the OIG obtained and reviewed thousands    of pages of FBI
documents relating to Edmonds' allegations, including e-mails, notes, and
other records. We also sought expert assistance with translations    and other
matters from another federal government agency outside the DOJ.

        We closely examined nearly a dozen separate allegations by Edmonds
against the co-worker which, when viewed together, amounted to accusations
of possible espionage.    We sought to determine, with respect to each individual
allegation, whether the facts supported or refuted the allegation. However, the
ultimate determination     as to whether the co-worker engaged in espionage, as
Edmonds' allegations implied, was beyond the scope of the OIG's investigation.
We communicated      to the FBI during our review that the OIG was not making
such a determination,    and that the potential espionage issue should be
addressed by the FBI, not the OIG. Instead, our investigation focused on the
FBI's response to the complaints Edmonds raised about her co-worker and
other language translation issues.

        According to some media accounts, Edmonds made additional
allegations relating to the September 11 terrorist attacks and the allegedly
inappropriate    reaction by other FBI linguists to those attacks.   However,
Edmonds never raised those allegations to the OIG, and we did not investigate
them in our review. Rather, we understand        that staff from the National
Commission on Terrorist Attacks Upon the United States (9/11 Commission)
interviewed Edmonds regarding these claims. Our review focused on the
allegations made by Edmonds to the OIG, particularly Edmonds' allegations
regarding the FBI's handling of the concerns about the co-worker, her
allegations about inappropriate    practices in the language program, and her
allegation that the FBI retaliated against her for raising those allegations.

        This report is an unclassified version of the OIG's full 100-page report on
Edmonds' allegations.     The OIG completed the full report in July 2004 and
provided copies of it to the 9/ 11 Commission and several congressional
committees that have oversight of DOJ. Subsequently,         two members of the
Judiciary Committee specifically requested that the OIG create a declassified
version of the report for public release. The letter stated that releasing a
"declassified" version of the report, "or at least portions or summaries, would
serve the public's interest, increase transparency,     promote effectiveness and




                                         2
efficiency at the FBI, and facilitate Congressional oversight."                In response,    the
OIG created this unclassified summary of the full report. 1

        This report describes the results of our investigation.   In Part III of the
report, we provide background information on Edmonds and relevant FBI
components     and procedures.   In Part IV, we assess the factual basis underlying
Edmonds' allegations against the co-worker. In Part V we provide a factual
chronology of relevant events and an analysis of the FBI's handling of the
allegations as they arose. In Part VI, we examine some of Edmonds' additional
allegations, including concerns about travel voucher fraud and time and
attendance    abuse. In Part VII, we address the allegation that the FBI decided
to stop using Edmonds as a linguist in retaliation for her allegations.      Finally,
in Part VIII, we make systemic recommendations        to the FBI in an attempt to
help it improve its foreign language translation program.2


III.    BACKGROUND

       In this section of the report, we provide brief background information on
Edmonds.      We also describe the FBI's Language Services Section (LSS), which
manages the FBI's language program and its linguists.        We then describe some
of the procedures regarding FBI language translations      that are relevant to this
case.




          1 The FBI conducted a classification review of the full version of this report and
classified it at the Secret level. Because the information was from the FBI, the OIG did not
have the authority to declassify or publicly release the report on its own. We conferred with the
FBI and the DOJ Civil Division in the creation of this unclassified summary of the report. We
believe this unclassified version summarizes the core of the OIG report, although it does not
include all of the facts in the full report or even all of the allegations addressed in the full
report. Moreover, we recognize that, in some instances, it is difficult to understand     this version
of the report fully because much of the information from the full report remains classified and
cannot be included here. However, this version is the maximum that the FBI and the DOJ
Civil Division agreed was unclassified and allowed to be released publicly.
         2 It is important to note that the OIG completed a broader audit regarding the FBI's foreign
language translation program. That audit is entitled "The Federal Bureau of Investigation's
Foreign Language Program Translation of Counterterrorism        and Counterintelligence  Foreign
Language Material." In it, the OIG examined the FBI's ability to translate critical foreign language
material, its success at meeting linguist hiring goals, and whether the FBI's procedures ensure the
appropriate prioritization of work, accurate and timely translations   of pertinent information, and
adequate pre- and post-hire security screening of linguists. The audit report was completed in
July 2004 and classified by the FBI at the Secret level. Like the full Edmonds report, that audit
report was provided to several Congressional      committees and the 9/11 Commission.     The OIG
released an unclassified summary of the audit report in July 2004. It is available on the OIG's
website at http:/ hvww.usdoi.gov/oig/audit/FBI/0425/index.htm.



                                                  3
        A.      Edmonds

       Edmonds, who was born abroad and speaks English fluently, moved to
the United States in 1991 to attend college. She married an American citizen
in 1992. Before joining the FBI, Edmonds worked as a volunteer at a local
courthouse,  as a court-appointed    special advocate for children, and for the
Rostropovich foundation, a non-profit organization that delivers medical
supplies and food to a children's hospital. In addition, Edmonds served as a
corporate officer (Secretary) for her husband's consulting business.

        Edmonds applied to the FBI on March 10, 1997, for a linguist position.
After she took the requisite language tests, by letter dated May 6, 1998, the FBI
offered Edmonds a position as a CL. The offer was contingent upon Edmonds
receiving a Top Secret security clearance.

        Pursuant to instructions     in the offer letter, Edmonds completed, on June
4, 1998, an SF-86 Questionnaire         for National Security Positions - the standard
form used by the federal government to collect information for background
investigations    of persons q.pplying for positions that require a security
clearance.     As part of the background investigation, Edmonds was polygraphed
on December 4, 1998. The FBI also conducted a Personnel Security Interview
(PSI) of Edmonds on December 16, 1998. Her security file does not reflect any
activity on her background investigation during 1999. It appears that through
a series of oversights and lack of follow through, the FBI did not take action on
her background       investigation, and therefore Edmonds did not begin work as a
CL during this time period.

        In February 2000, the FBI asked Edmonds to submit another SF-86. In
April 2001, LSS wrote a memorandum       requesting that the PSI be updated, and
asking that the necessary work be done to complete the background
investigation.   The FBI conducted supplemental    PSIs of Edmonds on May 1,
2001, and July 19,2001.      On September 13,2001, four years after she first
submitted her application, the FBI granted Edmonds a "Top Secret" clearance.
No job interview was conducted other than the PSIs.

     Edmonds began ,¥orking for the FBI on September 20,2001,     first as a
Contract Monitor (CM), and shortly thereafter as a CL.3 As we describe below,
on March 22, 2002, the FBI stopped using Edmonds' translation    services.


         3 The various linguist positions in the FBI are described more fully in the next section
of this report. In brief, a CM can provide summary translations         of oral and written
communications,     and analyses of those translations,    for internal dissemination.     In addition to
those services, CLs also can act as interpreters    in FBI interviews, review material produced by
other linguists, produce written communications       for internal and court dissemination,      and
testify as expert witnesses in federal court. A CL can perform the same duties as a Language
Specialist, which is the term for a linguist who is a permanent employee of the FBI.



                                                    4
        B.       The FBI's Language Services           Section
                 1.        Organiza~ion
        In the early 1980s, the FBI began hiring linguists for translation,
interpretation,   and other language services necessary for the FBI's work.
Before that, the FBI used Special Agents to perform such services. The number
of linguists hired by the FBI grew from a mere handful in 1983 to over 1,100 by
2002.

        Through its Foreign Language Program (FLP), the FBI seeks to ensure
that the language needs of its field offices and Headquarters   units are met.
The FLP and the personnel who perform language services for the FBI are
directed by the LSS. LSS personnel handle approximately 60 languages
covering 95 percent of the world's population.    Since March 2002, the LSS has
been placed within the Office of International   Operations at FBI Headquarters,
which is under the jurisdiction of the FBI's Director for Law Enforcement
Services. Immediately before the March 2002 reorganization,      LSS was part of
the Investigative Services Division.4 A copy of the FBI's organizational  chart,
dated March 4,2004, is attached as Appendix A.

        During the early part of 2002, the time relevant to this review, LSS was
composed of three units. The Language Training and Assessment Unit (LTAU)
was responsible for developing and conducting language assessments            of FBI
applicants and personnel.     The LTAU also provided foreign language and
cultural training to FBI personnel.    The Translation and Deployment Unit
(TDU) managed national translation and interpreting resources in support of
the FBI's investigative and administrative    priorities. The TDU ensured that
linguists were assigned to offices requesting their services or that a requesting
office's work was sent to available linguists. The Language Administration         and
Acquisition Unit (LAAU) handled the administrative        functions of the FLP. The
LAAU also was responsible for hiring linguists and for researching, acquiring,
and integrating language-related    technologies.     An organizational  chart for the
LSS, dated November 13,2001, is attached as Appendix B.

                 2.        Types of Linguists

        The FBI uses three types of linguists.     First, the FBI has permanent
employees known as Language Specialists (LS). LSs provide translations            of
written or oral communications       and analyze those translations.     They also can
act as interpreters   in FBI interviews, review material produced by other
linguists, produce written communications         for internal and court
dissemination,     and testify as expert witnesses in federal court.

        4   Before that, LSS had been placed, at various   times, in the Laboratory   Division and
the Criminal   Investigative   Division.




                                                  5
       In addition, the FBI uses contract employees as linguists. The Contract
Linguist Program (CLP), which is administered    by the LAAU, enables the FBI to
acquire linguist resources without adding permanent employees. It also gives
the FBI the opportunity to recruit permanent LSs from linguists who already
have been evaluated through the CLP. The FBI uses two types of contractors
with different ski11levels, CLs and CMs. Linguists' designation as CL or CM
depends upon their performance on language tests administered      by the LSS.5

        According to an LSS Operational Manual, CLs perform translation duties
"similar to those of Language Specialists."       CLs provide translations  of written
or oral communications       and analyze those translations.    They also act as
interpreters   in FBI interviews, review material produced by other linguists,
produce written communications        for internal and court dissemination,    and
testify as expert witnesses in federal court.

        The FBI created the additional position of CM in response to a critical
need for linguists and the inability to find a sufficient number of linguists who
qualify for LS or CL positions. A CM can provide summary translations             of oral
communications      and analyses of those translations,    and written
communications      for internal dissemination.  An FBI memorandum          explains
that the CM position was proposed to address a critical need for linguists to
perform summarization        work. The memorandum       explained that a CM's work
may require some additional clarification and review. It stated that CMs
should not be asked to write foreign language transcriptions,         nor should they
testify regarding the accuracy of their translations.     In addition, according to
the memorandum,       a CM's work should be reviewed by a fully qualified linguist
before it is used for other than internal use. Moreover, the memorandum
recommended      that the CMs not be given assignments       in offices where they are
the only speakers of the language in question.

        Thus, CMs are more limited in their duties than CLs. For example, a CL
is qualified to provide a verbatim translation.   A CM, in contrast, is not
approved for verbatim translations    of documents, but may provide summary
translations.   However, in order to cope with these limitations, the FBI often
has CMs do verbatim translations     and then has the translations   reviewed by
CLs.

        LSS directs from FBI Headquarters  all of the linguists in the FLP. The
linguists themselves generally are assigned to assist FBI agents in their work,
and the linguists generally are grouped according to language.      FBI linguists


         5 In this report, the generic terms "linguist" and "translator"   refer to any of the three
categories - LS, CL, and CM.



                                                   6
translate a wide variety of materials,         including    recordings,   written documents,
and audio recordings of interviews.

                3.     Language Services Section Computer System and
                       Training

       As discussed more fully in the OIG's foreign language translation audit,
(cited at footnote 2), an FBI computer network links FBI offices and permits
large quantities of material to be moved between offices for translation, to
better utilize FBI linguistic resources.

        More than one linguist may be assigned to a particular task, due to
resource issues. The FBI's computer system only keeps a record of the last
person to work on a particular task; it does not maintain records of any other
linguist's prior access. In addition, the work does not remain on the computer
system for long because of space limitations.    Material may be removed from
the system in as little at three days, whether or not a linguist has reviewed it.
Once material is removed from the local network, it is stored, or archived, so it
can be reviewed later. However, information about who reviewed the material
is not retained in this archiving process, though material that has been
archived can be retrieved. The FBI attempts to ensure that reviewed material is
removed before un reviewed material. A senior LSS supervisor told the OIG that
a "conscientious"   supervisor can "protect" unreviewed material by specially
marking it so that it will not be deleted from the system.6

       Documents created by linguists are            automatically  shifted from an
individual linguist's computer directory to          the agents' computer directory on a
scheduled basis. A linguist can prevent a            document from being automatically
moved only by taking steps to prevent this            automatic feature from activating.

        General training for linguists is handled by LSS, not by the agents the
linguists will be assisting.  The linguists are assigned to assist the Special
Agents with respect to the subject matter of their cases. The Special Agents
instruct the linguists as to what they do and do not want them to translate.    A
Special Agent told the OIG that he also briefs the linguists on guidelines they
need to know to do their work. This Special Agent said that, for the first six
months to a year, he does not expect much from the linguists because they are
still learning what is important and how to do the work.




        6 This senior supervisor noted that if a linguist is out of the office when material is
removed, the linguist may not even be aware of the removal. He described this as a "huge
problem."



                                                 7
       c.      FBI Security Procedures

       Linguists must obtain security clearances to work for the FBI. Edmonds
and the co-worker went through this process. The adequacy of the co-worker's
securi ty review was a significant issue in this case.

               1.     Personnel Security Interview

         In addition to completing the required forms for a national security
position, an individual whose background is being investigated by the FBI must
undergo a PSI.7 According to the instructions      on the SF-86, the interview is an
"opportunity to update, clarify, and explain information on your form more
completely." According to the FBI's Manual of Investigative Operations and
Guidelines (MIOG), the interview must be conducted at the "inception of the
[background] investigation with the purpose of obtaining information to
facilitate our investigative efforts," and "to ensure that complete (current and
accurate) information is available concerning the candidate."      MIOG, Part 2,
Section 17-5.6.

       According to the MIOG and a relevant FBI Electronic Communication
(EC), areas to be covered in the background investigation include personal and
business credit issues, denials and dismissals from employment, business
circumstances    that could lead to conflict-of-interest allegations, membership or
involvement in organizations    that are discriminatory   and organizations that
advocate activities against the interest of the United States, and concealment of
any activity that could be used to compromise the applicant or have an adverse
effect on their character.  MIOG, Part 2, Section 17-5.6.

               2.     Pre-employment         Polygraph

       All applicants for employment with the FBI, including CLs, also must
undergo a pre-employment         polygraph examination.   Manual of Administrative
Operations and Procedures (MAOP), Part 1, Section 22-9.1. The examination
focuses on national security issues, use or sale of illegal drugs, and
completeness     of the Application for Employment.     MIOG, Part 2, Section 13-
22.12. An expanded polygraph examination may be requested regarding any
national security concerns remaining after the PSI.




        7 Not all federal agencies use the FBI to conduct background investigations.   However,
because the FBI conducts background investigations      on Contract Linguists such as Edmonds
and the co-worker, this section addresses the FBI policies and procedures for conducting
background   investigations  on its applicants and employees.



                                                8
                3.     Security    Clearance

       The LSS conducts the background investigation and the pre-employment
polygraph to ensure that the candidate is suitable for employment.      The
applicant's file is then passed to the Initial Clearance and Access Unit (ICAU) in
the Personnel Security Section within the FBI's Security Division.8 ICAU's
function is to determine if the applicant will be granted a security clearance.
The adjudicators    within ICAU may request that a risk assessment   be
performed.   A risk assessment   is meant to address any security concerns that
surface during the applicant's background investigation, including those that
might indicate the applicant's vulnerability to coercion.

       The risk assessment    is initiated by sending a lead to the relevant
operational division at FBI Headquarters.9       A Special Agent or analyst who has
the expertise for that specific area completes the risk assessment.      According to
the ICAU Unit Chief, the decision to conduct a risk assessment       for an applicant
depends on the specific circumstances       of the case.IO He stated that as of
March 2004, risk assessments       are completed for approximately    95 percent of
applicants for CL positions.

        If the ICAU determines that a potential contractor should be granted a
security clearance, a Security Officer gives that person a security briefing.II
The purpose of the briefing is to inform individuals that they may not disclose
sensitive or classified information obtained while working for the FBI, and to
inform the individuals of the consequences     for unauthorized disclosure.

      At the briefing, new contractors sign a Security Acknowledgement     Form
in which they acknowledge that they understand     the information provided in

        8 Before the creation of the Security Division in December 2001, these duties were
performed by the Industrial Security Unit within the FBI's National Security Division.
       9 When an FBI field office needs assistance or information from another office or from
FBI Headquarters,   it "sets a lead" for the assistance. Leads are initially written out in ECs,
hard copies of which are mailed to the appropriate offices.
        10 Throughout this report, individuals   are identified   using the title they held at the time
of the event or action under examination.

         11 The Special Agents who serve as Security Officers are responsible for processing
administrative    paperwork for FBI employees, contractors, and others who need security
clearances, country clearances, and travel warnings.      They also pass clearances to other
organizations.    The Security Officer also provides security briefings and covers leads for
background     investigations.
          Security Officers also conduct investigations  of reported and suspected security
violations.   The types of violations they investigate include using home computers to process
classified information, processing Top Secret information on the internal FBI Secret network,
unauthorized      access to FBI files, and sharing computer passwords.




                                                 9
the briefing and agree to adhere to instructions    printed on the form for
handling classified information.    They also sign a Classified Information
Nondisclosure    Agreement. The Agreement is an II-point agreement between
the individual and the United States government stating that the individual
possesses a security clearance for access to classified information, has been
briefed about security responsibilities,  and will not improperly divulge
classified information.   The Agreement also sets forth the potential
punishments     for improperly divulging classified information.  Until the form is
signed, the individual does not have clearance and cannot have access to
national security information.


IV.   THE OIG'S EXAMINATION OF EDMONDS' ALLEGATIONS AGAINST A
      CO-WORKER

        In this section, we examine the allegations Edmonds made against her
co-worker. In the classified version of the report, we fully described and
evaluated the evidence underlying nearly a dozen separate allegations
Edmonds made regarding the co-worker which, when viewed together,
amounted to an accusation against the co-worker of possible espionage.        With
respect to each individual allegation, we analyzed the facts supporting or
refuting the allegation. We did not attempt to reach a definitive conclusion on
the truth of each allegation or whether the implication of espionage was
supported.     Rather, given the available evidence, we assessed whether the FBI
treated each allegation appropriately.     Because the facts underlying each
allegation remain classified, we cannot include our detailed description and
analysis of each individual allegation in this unclassified summary.    Instead,
we describe our evaluation of Edmonds' allegations in general terms.

        We found that many of Edmonds' core allegations relating to the co-
worker were supported by either documentary        evidence or witnesses other than
Edmonds.     Moreover, we concluded that, had the FBI performed a more careful
investigation of Edmonds' allegations, it would have discovered evidence of
significant omissions and inaccuracies     by the co-worker related to these
allegations.  These omissions and inaccuracies,     in turn, should have led to
further investigation by the FBI. In part, we attributed the FBI's failure to
investigate further to its unwarranted    reliance on the assumption    that proper
procedures had been followed by the FBI during the co-worker's hiring and
background    investigation, which did not include a risk assessment,     contrary to
FBI practice. We also found that Edmonds was justified in raising a number of
these concerns to her supervisors.     For example, with respect to an allegation
that focused on the co-worker's performance, which Edmonds believed to be an
indication of a security problem, the evidence clearly corroborated Edmonds'
allegations.




                                         10
        With regard to some of Edmonds' allegations, the OIG did not find
evidence to support her allegation or the inferences that she drew from certain
facts. However, Edmonds' assertions regarding the co-worker, when viewed as
a whole, raised substantial   questions and were supported by various pieces of
evidence. While there are potentially innocuous explanations       for the co-
worker's conduct, other explanations were not innocuous.        Although the exact
nature and extent of the co-worker's security issues are disputed, it is clear
from the OIG's investigation that the facts giving rise to Edmonds' concerns
could have been uncovered had the FBI investigated Edmonds' allegations
further. We believe that the FBI should have investigated the allegations more
thoroughly.    We also believe the FBI's handling of these allegations reflected an
unwarranted     reluctance to vigorously investigate these serious allegations or to
conduct a thorough examination of Edmonds' allegations.         As will be discussed
in the next section, the FBI did not, and still has not, conducted such an
investigation.

        Finally, as we discuss in Part V, rather than investigate Edmonds'
allegations vigorously and thoroughly, the FBI concluded that she was a
disruption and terminated her contract.      We concluded that the FBI could not
show, by clear and convincing evidence, that it would have terminated
Edmonds' services absent her disclosures.


v.     FACTUAL CHRONOLOGY RELATED TO EDMONDS' ALLEGATIONS
       AGAINST A CO-WORKER

       In this section of the report, we provide a chronological summary of
relevant events and issues pertaining to Edmonds' allegations against the co-
worker.12 We also examine the FBI's handling of the allegations against the co-
worker.

       A.      Edmonds' Initial Allegations

         Edmonds began contract work at the FBI on September                  20, 2001. At her
request, she worked part-time for approximately    20 hours per               week. Edmonds
initially was assigned as a CM, and shortly thereafter as a CL.                Edmonds and
her colleagues were assigned to assist agents with translations                on various
operational matters.

       Toward the end of 2001, Edmonds became suspicious of a co-worker for
various reasons.  In Edmonds' view, information she learned about the co-
worker's background,   coupled with certain of the co-worker's actions with

       12 This version of the report uses male pronouns   throughout   for individuals   who are
not named, regardless of gender.



                                               11
regard to the co-worker's work at the FBI, raised a security concern. Edmonds
told the OIG that a series of events in December 2001 and January 2002
formed the initial basis for her complaints to her supervisors and to the OIG.
First, Edmonds told the OIG that her conversations        with the co-worker and her
observations     of the co-worker's conduct made Edmonds uneasy about the co-
worker from a security standpoint.       Edmonds also told the OIG that in early
January 2002, she saw documents that increased her suspicion about the co-
worker. Also in early January, according to Edmonds, documents began to
disappear from her work space, and she became suspicious due to revisions in
the distribution     of work assignments   that recently had been implemented.   On
January 22,2002,        Edmonds documented some of her concerns and provided
them to her supervisor.      As a result of Edmonds' written concerns, on January
25, 2002, meetings were held to address the issues she raised. After the
meetings, the FBI took a number of steps in response to the information
Edmonds had provided. In addition, although her Language Supervisor told an
FBI manager about the allegations, no one reported the matter to the Security
Office at that time.

       We concluded that the actions taken by the FBI after Edmonds raised
concerns in writing on January 22,2002,        and orally on January 25,2002,
were insufficient and did not address fully the concerns raised. Moreover, we
found that the approach taken by the FBI in response to Edmonds' allegations
compromised,     in certain respects, its opportunities  to investigate further.

       Several FBI witnesses told the OIG that allegations suggesting potential
espionage by one FBI employee against another are exceedingly rare. This
allegation was extremely serious - even if the evidence was not clear. Once
Edmonds submitted her detailed written complaints about her colleague, a
sufficient basis existed to justify a thorough inquiry by the FBI. However, as
will be described below, the FBI's inquiry was seriously deficient. 13

        B.      Edmonds Documents Additional Complaints in a February 8
                Memorandum Written on Her Home Computer

        In the two weeks following the January 25 meetings, Edmonds made
additional complaints, including assertions that the co-worker was being


          13 As demonstrated  by the espionage of former FBI Agent Robert Hanssen, the FBI
must take seriously allegations suggesting security,breaches,      even if the evidence is not c1ear-
cut. The Hanssen case demonstrates       that an individual reporting a security-related   concern
about another employee may not have the whole story, but may provide sufficient information
to focus attention on a person deserving of further scrutiny.    See the OIG's report entitled "A
Review of the FBI's Performance in Deterring, Detecting, and Investigating the Espionage
Activities of Robert Philip Hanssen," August 2003. It is available on the OIG's website at
http://www.usdoi.gov/oig/    speciall0308/final.pdf.



                                                  12
protected inappropriately  by a supervisor. 14 Edmonds also alleged that the co-
worker threatened her. Ultimately, Edmonds was asked to provide the details
of her complaints in writing. Edmonds asked if she could write them up at
home due to her concerns about items being removed from her computer, and
the Language Supervisor agreed to the request. Using her home computer,
Edmonds wrote a memorandum        about her complaints dated February 8, 2002.

       Edmonds provided the memorandum         to the Language Supervisor on
February 9, 2002. That day, the Language Supervisor sent a copy of the
memorandum     to the Chief of the LAAU. Initially, the Language Supervisor
expressed no concern to the LAAU Chief about whether Edmonds'
memorandum     contained any classified information, nor did the Language
Supervisor indicate that he would contact the Security Office. The Language
Supervisor explained to the LAAU Chief that a copy of Edmonds' memorandum
was provided to others for response.   In addition, the Language Supervisor
spoke to the Special Agent who Edmonds assisted and asked him to conduct
some follow-up on Edmonds' memorandum.           In addition, the Language
Supervisor decided to begin supervising Edmonds directly. The Language
Supervisor also notified his superior about Edmonds' allegations.

       The OIG found problems with the manner in which the FBI initially
handled Edmonds' February 8 memorandum.           In response to Edmonds'
February 8 memorandum,        the Language Supervisor provided a copy to a
person (other than the co-worker) who was discussed in the memorandum,        for
his response, even though this created a risk that the investigation could be
compromised.     In addition, the Language Supervisor spoke to the Special Agent
who Edmonds assisted and asked him to conduct certain follow-up, although
this also could have compromised any investigation.       Edmonds had raised an
extremely serious allegation that deserved to be handled more carefully. The
Language Supervisor's requested follow-up action was not a prudent step,
given the possible consequences     if Edmonds' allegations were true.

       c.      Security Office Investigation

        On February 11, 2002, the Language Supervisor gave a Security Officer a
copy of Edmonds' February 8 memorandum          and called his attention to the
security concerns related to the co-worker. The Security Officer told the OIG
that the Language Supervisor stated that Edmonds had included some
classified information in the memorandum      that she had written on her home
computer.    The Security Officer was assigned to investigate the matter.




       14 The OIG's examination    of FBI records    did not substantiate   the allegation   that the co-
worker was being inappropriately   protected.



                                                    13
       On February 12,2002, the Security Officer interviewed Edmonds.
Edmonds told the Security Officer she had written the memorandum     on her
home computer because of her concerns about documents being taken from
her office, and said she had done so with the Language Supervisor's
permission.    Edmonds acknowledged that her husband used the home
computer for work, including faxing documents and sending e-mail. Edmonds
said that her husband did not look at her documents.    Edmonds also repeated
her concerns about the co-worker to the Security Officer.

       The Security Officer told the OIG that he believed Edmonds was credible.
The Security Officer said that based on this interview, he was primarily
concerned about two things: Edmonds' allegation that she was threatened by
the co-worker and the fact that classified information was on Edmonds' home
computer.

       The next day, the Security Officer interviewed the co-worker. The
Security Officer asked the co-worker questions pertaining to the allegations
raised by Edmonds, and the co-worker denied Edmonds' allegations.       The
Security Officer told the OIG he also found the co-worker to be credible, which
he said undermined    his confidence in Edmonds.     However, we found the
Security Officer did not challenge the co-worker with respect to any information
the co-worker provided, although that information was not consistent with FBI
records. In addition, while the Security Officer reviewed some records, he did
not review other crucial FBI records, which would have supported some of
Edmonds' allegations.

      On February 13, with Edmonds' consent, the FBI seized her home
computer.  That same day, Edmonds also wrote to a higher-level FBI official
about her allegations and requested to meet with him regarding her concerns.

       On February 14, the Security Officer observed while a member of the
FBI's Computer Analysis Response Team analyzed Edmonds' computer to
determine what information had been processed on it. The Security Officer
said that there appeared to be another version of the February 8,2002,
memorandum      on the computer.  The FBI removed the classified information
from the computer and returned the computer to Mr. Edmonds on
February 15.

        On February 20, the Security Officer conducted an interview of a
potential witness to the co-worker's alleged threat to Edmonds.     After the
interview, the Security Officer reported up his supervisory chain that he
believed that Edmonds' allegations were unfounded.      This assessment was, in
turn, reported to a manager higher up the supervisory chain.

      On February 25, the Security Officer requested polygraph   examinations
of Edmonds and the co-worker in connection with this matter.

                                       14
        We concluded that once the Security Officer was notified on February 11
of Edmonds' potential security violation, he took swift action with respect to the
security violation Edmonds committed.     The Security Officer quickly took
custody of Edmonds' home computer and analyzed it. The Security Officer also
deleted classified information from the computer and returned the computer to
Edmonds.

        By contrast, we believe that the Security Officer's investigation of
Edmonds' claims against the co-worker was significantly flawed. The Security
Officer neither adequately prepared for nor adequately followed up on
information obtained during the course of the investigation.         The Security
Officer also failed to memorialize adequately crucial information derived during
the course of the investigation.       While an investigator's impressions of the
witnesses are significant in any investigation, in this case the absence of any
effort by the Security Officer to corroborate information provided by witnesses
with independent     evidence suggests that he relied unduly on his subjective
impressions    of the witnesses.IS     Moreover, the Security Officer over-relied on
the absence of corroboration       of the threat allegation, which the Security Officer
believed to be the most serious aspect of Edmonds' allegations.          This
overreliance resulted in a premature conclusion that Edmonds' security
concerns lacked merit.

        In addition, the Security Officer failed to perceive as a security issue
what he considered were merely performance issues. He did not, therefore,
adequately address these issues and, as will be discussed later, deferred to
others completely for an evaluation of this aspect of the case. We believe it was
the Security Officer's responsibility to gather all the facts related to these
allegations, many of which the Language Supervisor would not have known,
and it was inappropriate    for the Security Officer to defer to the Language
Supervisor or others on certain critical questions.

        In sum, the Security Officer conducted a superficial investigation that
focused almost entirely on Edmonds' allegation regarding a threat to her. The
Security Officer seemed not to appreciate or investigate the allegation that a co-
worker may have been committing espionage.        Nor did the Security Officer refer
the allegations of potential espionage elsewhere in the FBI. The Security
Officer told the OIG that he believed, based on the amount of evidence at hand,
a referral would have been pointless.    Our review revealed that a thorough
investigation by the Security Office would have shown otherwise.

       15   In an e-mail dated February 14, 2002, three days after the Security Office was
notified of these allegations, the Language Supervisor wrote that it was his opinion and the
opinion of the Security Officer and the Special Agent who Edmonds assisted that Edmonds was
trying to get the co-worker "fired." The Security Officer denied expressing that opinion by that
date.



                                                15
      D.    Follow-up by the Language Supervisor

         On February 14, the Language Supervisor sent an e-mail to the LAAU
Chief and another FBI manager providing an update on the case. In the
e-mail, the Language Supervisor asserted that there was no basis for Edmonds'
concerns.    In response to the Language Supervisor's e-mail, the LAAU Chief
wrote an e-mail dated February 15 stating that he was "still concerned" about
Edmonds' allegations.    The LAAU Chief stated that crucial FBI records (those
that the Security Officer never personally reviewed) did not resolve a significant
aspect of Edmonds' allegations.    He asked that the matter be looked into
further.   He also urged that the matter be addressed quickly and fairly to avoid
losing any "precious linguistic resources" due to "morale problems."      ,

        On February 21,2002, the Language Supervisor sent an FBI manager
and the LAAU Chief an EC summarizing his actions in connection with
Edmonds' allegations.    In the EC, the Language Supervisor stated that the
security allegations related to the co-worker had been referred to the Security
Office. With respect to some of Edmonds' allegations, the Language Supervisor
wrote that the matter would be addressed by him and others in his office as a
"performance and management       issue." The Language Supervisor added that it
could be a "training issue" and that language translators  had voiced concerns
about their inadequate training. He stated that he would hold appropriate
persons responsible for any problem of that nature and he would continue to
address the matter in a mid-year performance review. In addition, the
Language Supervisor described his efforts to determine whether certain of
Edmonds' other allegations were true.

        The Language Supervisor also stated in the EC that he had put Edmonds
under his supervision.     In addition, he wrote that on February 11 Edmonds
told him that she was considering going public and bringing criminal charges.
Finally, the Language Supervisor reported that on February 19, despite the fact
that Edmonds was told that the matter was being investigated and she should
be patient, Edmonds said she had retained a lawyer and had written letters to
"high level" officials within the FBI. The Language Supervisor said he
cautioned Edmonds on both occasions not to reveal classified information.

      E.     Edmonds    Meets with FBI Management

        On February 22, Edmonds met with FBI management.       An FBI manager
told the OIG that his purpose in holding the meeting was to try to reduce
Edmonds' anxiety and to find out from her if there were other facts that would
support her allegations.   He said he told Edmonds that the Security Office
investigation had not borne out the most serious aspect of her security
concerns.    He said he explained to Edmonds that he had also contacted others
within the FBI and no basis for that aspect of her security concerns existed. At

                                        16
the meeting, Edmonds       asked this manager      to put his statements     to her in
writing. He declined.

        Edmonds described this meeting to the OIG as confrontational   and
hostile. The FBI manager denied that and said his impression of Edmonds
after the meeting was that she was "very bright" and "aggressive." He said that,
at the time, he did not believe she was fabricating her allegations. Immediately
after the meeting, however, the manager began to explore whether the FBI had
the option to cease using Edmonds as a CL.

       F.     Follow-up    by the Special Agent who Edmonds             Assisted

        On February 26, an FBI Special Agent wrote an EC analyzing the
additional information the Language Supervisor had requested as a result of
Edmonds' allegations of deficient performance by the co-worker. The Special
Agent believed that a remedial measure would adequately address the
performance aspect of Edmonds' allegations.   The remedial measure was then
implemented.    No other action was taken as a result of the review. However,
the remedial measure was rescinded, at the request of this Special Agent, less
than three weeks later, and Edmonds questioned the decision to rescind the
remedial measure.

       G.     Polygraph     Examinations

        The Security Office decided that polygraph examinations    would be
helpful in making determinations    about Edmonds' security allegations and the
security violation committed by Edmonds.      In a four-page request for
polygraphs, drafted on February 25, 2002, the Security Officer stated that
"preliminary investigation" indicated that the co-worker had not made any
threats to Edmonds, but the polygraph was needed to thoroughly pursue these
issues and determine whether or not the co-worker posed a security risk. The
Security Officer also noted that "preliminary investigation" indicated that
Edmonds had written, on her home computer, multiple memoranda containing
classified information, had retained an attorney, and had threatened to go to
the press. The Security Officer asked that a polygraph be conducted of
Edmonds to determine whether she had written additional memoranda on her
home computer or whether she released classified information to unauthorized
parties. 16




         16 Once Edmonds was notified of the polygraph, she began writing letters to FBI
managers requesting a written explanation of why she was being polygraphed and what
questions she would be asked. The FBI declined to provide her with anything in writing on
that subject.



                                             17
       Based on the Security Officer's request of February 25, which was
approved by the FBI, polygraph examinations       of Edmonds and the co-worker
were scheduled for March 2002. The Chief of the FBI's Polygraph Unit
e-mailed an FBI manager to say that the focus of the polygraph examinations
would be to determine if classified or confidential material had been passed to
any unauthorized   individuals.   He also stated that the polygraph examinations
would focus on broad security concerns, rather than the threat that had been
alleged by Edmonds.

        On March 7, the day before her polygraph, Edmonds met with a higher-
level FBI official who listened to Edmonds repeat her allegations and then
thanked her for the information.    This official then contacted a manager in
Edmonds' supervisory chain, who told the official that the matter was being
looked into by the FBI, including by the FBI's Office of Professional
Responsibility (OPR).17 The official with whom Edmonds met took no further
action.

        On March 8, Edmonds took the polygraph examination.     The polygraph
questions asked of her related to whether she had disclosed classified
information to unauthorized   persons and whether she was maintaining
classified information outside FBI office space. She denied those charges, and
the polygrapher concluded that she was not deceptive in her answers.

        The co-worker was polygraphed on March 21. The co-worker was asked
about her activities. The co-worker denied having engaged in inappropriate
activities. The polygrapher concluded that the co-worker was not deceptive in
these answers.

       The Security Officer and other FBI managers later expressed
disappointment    with the questions asked in the polygraphs.   The Security
Officer said the questions were not responsive to the allegations raised by
Edmonds.     An FBI manager said that the polygraphs should have been
"customized" to obtain optimal results and that he was hoping the polygraphs
would be more conclusive in the investigation of these allegations.   The Chief of
the Polygraph Unit later told the analyst that more precise questions could
have been asked.

      We also concluded that the polygraph examinations     of Edmonds and the
co-worker were not ideal. In addition, we found that despite the concerns
about the polygraph, the FBI never considered doing any additional polygraphs



       17 That same day, Edmonds contacted FBI OPR and the OIG to report her allegations.
Because the OIG opened its investigation shortly after FBI OPR was contacted, FBI OPR did not
pursue the matter further.



                                             18
and continued to rely on the polygraph    as support   for its position that
Edmonds' allegations were unfounded.

      H.    Additional   Complaints

        Between February 8 and March     22 (the day the FBI stopped using her
services), Edmonds' relationship with    FBI management     deteriorated
significantly. By the end of February,   the Language Supervisor was becoming
increasingly frustrated with Edmonds'     allegations.  For example, on March 5
the Language Supervisor began taking      detailed notes of all his interactions with
Edmonds.

        At the same time, Edmonds seemed to become increasingly frustrated.
In addition to meeting frequently with the Language Supervisor about her
suspicions, Edmonds wrote numerous e-mails and memoranda raising
additional complaints.    Edmonds also warned the Language Supervisor of the
penalties for retaliation against a Whistleblower. Edmonds also requested
information about any allegation made against her. The Language Supervisor
declined to provide the information requested by Edmonds.

        On March 8, Edmonds complained that work she had been asked to
translate had not been loaded properly onto her computer, and that FBI
Special Agents had been waiting for the translations  for three weeks. The
Language Supervisor responded that since February 22, 2002, Edmonds had
only worked one day, on March 8,2002.     The Language Supervisor also stated
that Edmonds did not indicate which work she was referring to until March 5,
2002, when she was in the office briefly. In response, Edmonds repeatedly
complained to the Language Supervisor about the fact that she never was
provided information about the polygraph or the allegations against her.

        On March 15, the relationship between the Language Supervisor and
Edmonds became even more tense. Edmonds asked the Language Supervisor
why the Special Agent who she assisted had not been in contact with her in
over a month. Edmonds also inquired about her work assignments.         The
Language Supervisor responded that he did not know why the Special Agent
had not met with Edmonds and that, due to Edmonds' limited work hours and
the need to have certain work assignments     completed, he had requested that
linguistic resources be reallocated.  In response, Edmonds stated that in the
past few weeks, "coincidental" to her reports of wrongdoing, she had received
no new assignment and no offers of temporary duty (TDY) assignments.

       Later that day, the Language Supervisor informed Edmonds that he
would not submit for payment an invoice of Edmonds' that included 5.25 hours
spent in meetings related to her allegations. Before advising Edmonds that he
would not submit the invoice, the Language Supervisor consulted with the FBI
contracting office and was told that CLs are paid only for "actual hours

                                         19
worked." Edmonds ultimately        disputed    this decision,   and the FBI relented   and
paid her for the time.

      Also on March 15, Edmonds made a claim to the Language Supervisor
about time and attendance abuse by the co-worker. The Language Supervisor
subsequently   found no abuse, but sent out an e-mail reminding the linguists to
sign out as they leave for the night, rather than annotating it the next day.

        In addition, Edmonds reiterated a number of her security concerns and
asserted that she was being obstructed and retaliated against for her
complaints.     She also alleged that documents had "disappeared" from the
location where she kept her work papers. The Language Supervisor asked for a
list of the missing items. Edmonds requested a secure location for her
documents,     commenting that requiring her to keep her documents in a location
accessible by those whom she had accused of wrongdoing ~as ridiculous.

       Edmonds also wrote that the Language Supervisor had told her that the
Special Agent was unhappy with her performance and personality and he did
not want to deal further with Edmonds.   Edmonds requested a IS-minute
meeting with the Special Agent and the Language Supervisor to iron out any
issues and re-establish a proper working relationship.

        In a lengthy EC the   Language Supervisor      wrote on March 19 to an FBI
manager and the Security      Office, the Language     Supervisor denied ever telling
Edmonds that the Special      Agent was unhappy       with her work. However, the
Language Supervisor also      said that the Special    Agent would not meet with
Edmonds because he had        been instructed not     to do so due to Edmonds'
fabrications.

        On March 19, a Supervisory Special Agent wrote that he did not want to
use Edmonds' translation services anymore because she had been a complete
disruption to the office, often making groundless accusations.    The Supervisory
Special Agent said that he already had devoted too much time to the matter,
and he had lost faith in Edmonds' ability to carry out her assignments.    He
cited her security violation and recommended       that Edmonds be removed from
working his assignments     in light of security concerns and some other "agenda"
she was pursuing.

       Tension between Edmonds and her colleagues also increased during this
period. On March 20, the Language Supervisor noted that he had to act as an
intermediary   of behalf of Edmonds with others due to these tensions.   The
Language Supervisor also expressed frustration with Edmonds' impatience at
the time it took to resolve her allegations, writing that Edmonds did not seem
to the Language Supervisor to understand      that he had more pressing issues to
deal with at times.



                                              20
      Edmonds again wrote to the Language Supervisor      on March 22 alleging
that the co-worker had cheated on the co-worker's timesheet.   In fact, the co-
worker was out of the office for her polygraph examination during the time
period Edmonds questioned.     The Language Supervisor told Edmonds via
e-mail that Edmonds did not have all the facts and instructed Edmonds not to
mark on anyone's time sheet but her own.

      I.    FBI's Decision   to Stop Using Edmonds'      Services

        As described above, after the February 22 meeting with Edmonds, an FBI
manager began inquiring about the FBI's options with respect to the "use/non-
use" oflinguist contractors.   On February 26, the FBI Contracting Officer for
the General Contracting Unit of the Finance Division informed this manager
that, if it was determined that a CL was "unsuitable," the FBI would have
sufficient reason to terminate her contract.

       By March 20, the FBI manager had drafted an EC recommending          that
his office discontinue using Edmonds' services. In the introductory paragraph
he mentioned that Edmonds had raised issues concerning security,
performance,    and favoritism. Without further discussion of Edmonds'
individual allegations, he wrote that the Security Office's inquiry had concluded
that some allegations of Edmonds were not substantiated      and that she had not
been completely forthcoming about the extent of the sensitive and classified
information on her home computer.       In the EC, the manager said he found it
most telling that Edmonds had written to other high-level FBI officials nine
days before his first meeting with her, and he commented that Edmonds
seemed inclined to put forth additional complaints, as the discussion
continued, that were not mentioned previously. He wrote that she had a
propensity to inflate and misstate facts, and he described the tone of her letters
to the Language Supervisor as condescending       and somewhat threatening.     The
manager also noted in the EC his frustration at the pace of efforts by the
Security Office to resolve the matter in a clear-cut manner [i.e., to revoke
Edmonds' security clearance].    He remarked that Edmonds was using her
newly claimed whistle blower status as a "club" against her supervisors.      He
concluded that no action taken by his office would be satisfactory to Edmonds.
He recommended       that LSS immediately discontinue using her as a linguist,
and that her FBI access badge be cancelled and taken until "this situation" was
resolved. The manager e-mailed the draft of his EC on March 20 to the LAAU
Chief and others.

       The following day, the FBI manager issued the final EC, which was
substantially  less harsh in tone, and to which he had added the statement that
Edmonds had a "disruptive effect" on operational matters.    The final EC also
omitted the manager's earlier comments that Edmonds was not completely
forthcoming about the extent of the sensitive and classified information on her
home computer, that she had a propensity to inflate and misstate facts, and

                                        21
that she was using her Whistleblower status as a "club." He also removed the
comment he had made about her appeals to other FBI officials.

        The final EC also contained additional recommendations.          First, the
manager recommended         that Language Supervisors and higher-level Security
officials be apprised of the actions being taken. Second, he recommended that
Edmonds be debriefed regarding her future responsibility not to disclose
classified information and the criminal penalties that apply to such
disclosures,   and that her clearance be re-adjudicated.       Third, he recommended
that the Security Office complete its pending investigation and refer any
findings for administrative     or disciplinary action, or for further substantive
investigation.

        On March 22, FBI managers met with Edmonds and told her that her
services would no longer be used by the FBI. One manager reminded her of the
requirements   of the Security Acknowledgement Form. Edmonds told the OIG
that the meeting was hostile and that one manager threatened her with jail.
FBI managers denied that the meeting was hostile or that Edmonds was
threatened with jail. 18

       Prior to being escorted out of the building, Edmonds gave the Language
Supervisor and Security Officer a memorandum        that documented additional
performance problems related to the co-worker, which Edmonds considered to
be additional support for her underlying security concerns.             19

       Edmonds was then escorted           out of the building    by FBI personnel      and her
access badge was taken.

       J.      Security    Office's Damage Assessment

       Shortly after her termination, additional allegations of security violations
were made against Edmonds, including an allegation that Edmonds had
discussed classified information outside the FBI with unauthorized      persons at
a social setting, and that Edmonds put a copy of the March 22 memorandum
she gave to the Language Supervisor into an envelope for delivery to the OIG



        18 When the GIG asked the manager whether anyone at any time during the meeting
told Edmonds she could go to jail, he said he thought it was implied in the Security
Acknowledgement   Form. However, he denied telling Edmonds, as she alleged, that the next
time they saw her it would be in jail. Another manager denied that there was any discussion      of
Edmonds possibly going to jail.
        19 The Language Supervisor subsequently    requested verification of the facts Edmonds
put into this memorandum.    The follow-up confirmed that Edmonds' description of the facts
was accurate, but the Language Supervisor took no further action.




                                               22
and OPR, although neither the memorandum                nor the envelope contained        the
required classification markings.

        On March 26, the Security Officer drafted an EC with the heading,
"Damage assessment      conducted and provided to FBIHQ regarding the
processing of classified information on the home computer of a contract
linguist." He recommended      revocation of Edmonds' security clearance.   The
Security Officer wrote that the Security Office considered it a threat to national
security to continue to allow Edmonds access to classified information.

       The Security Officer's EC was not finalized until May 2,2002, because he
and his supervisor disagreed about its contents.       According to the Security
Officer, the supervisor took the position that Edmonds' security clearance
should be "re-adjudicated"    by the proper authorities at FBI Headquarters.     The
final version of the EC stated that the Security Office "questions" Edmonds'
trustworthiness   with sensitive national security information, based on her
having processed classified information on her home computer and because
she was seen putting a memorandum        containing classified information into an
envelope for delivery to the OIG and OPR, without the proper markings.         The
EC recommended       that she not be used for classified translation duties with the
FBI and that her clearance be re-adjudicated.2O

       K.      SubsequentReview by FBI Security               Officials

       In May 2002, after the media and Congress began making                   inquiries
about Edmonds' allegations, the Section Chief of the Personnel                Security
Section in the FBI Security Division asked one of his unit chiefs              to take a look
at this matter. The unit chief assigned an Investigative Analyst              Consultant
with the Security Division to gather information about the case.

        During the course of the analyst's work, he wrote two memoranda.       The
first, written June 4,2002, stated that Edmonds had been "suspended" and
that she had committed three security violations: the two classified
memoranda written on her home computer (the February 8 memorandum              and
the memorandum        found during the analysis of Edmonds' computer) and the
discussion of classified information outside the FBI with unauthorized     persons
at a social setting. However, the analyst's memorandum      noted that she was
not fired for security reasons and her clearance had not been revoked. The
memorandum       then summarized the allegations against Edmonds, Edmonds'
allegations against the co-worker, and the Security Officer's investigation.



          20 The Security Office's May 2 EC recommending  re-adjudication  of Edmonds' clearance
failed to point out that the polygraph results undercut the claim that she had discussed
classified information outside the FBI with unauthorized   persons at a social setting.



                                               23
        The analyst conducted additional investigation and found substantial
flaws in the Security Officer's investigation.  In a second memorandum,      dated
June 14, 2002, the analyst described the inaccuracies      and flaws in the
Security Officer's investigation.  As a result, another Security Officer
interviewed the co-worker again. The co-worker stated that the co-worker was
mistaken about some facts in the original interview, but the co-worker also
disputed the accuracy of a portion of the write-up of the initial interview.

       The analyst's review also noted that the polygraphs were not as precise
as they could have been because the polygraphs focused on broad security
concerns, rather than the precise issues Edmonds had raised. The analyst
reported that the Polygraph Unit Chief admitted that questions directly on
point could have been asked but were not. However, the Polygraph Unit Chief
asserted to the analyst that the more generic question "would have elicited a
discernible reaction."

        Despite the fact that the analyst's review unearthed these problems with
the Security Officer's investigation, FBI Security officials did not request any
further review or re-investigate   Edmonds' allegations.21 We found that the
analyst's review revealed substantial     infirmities in the Security Officer's
investigation at that time. Nevertheless, higher-level FBI Security officials
failed to initiate a more thorough investigation.     As noted above, we believe
ample basis existed for such a review.

        In sum, we believe the FBI's initial inquiries in response to Edmonds'
allegations were seriously deficient. Had they been more thorough, an
appropriately   focused analysis could have been conducted much earlier.
Moreover, even when the FBI was notified of additional information, the FBI
still did not promptly document and act on the information provided. The
remedial action taken to address one aspect of Edmonds' concerns was not
sufficiently thorough, and the FBI reversed itself prematurely.     This was an
inadequate response under the circumstances.

       We also note that, at the time of these events, the FBI had no protocol for
the receipt and investigation of derogatory information provided by someone
within the FBI about a co-worker. In May 2002 (after Edmonds was
terminated), in response to the Hanssen case, the FBI created a new
counterespionage    section, CD-4, to investigate allegations of espionage,
including all allegations of penetrations  of the U.S. Government.    According to

         21 The analyst's two memoranda later were used as the basis for talking points provided
to the head of the Security Division, who briefed several Congressional staff members about the
Edmonds case on June 17, 2002. The briefing was unclassified because a staffer at the
briefing lacked the appropriate security clearance.  During the course of the briefing, the
Security Section Chief inadvertently revealed what the FBI considered to be classified
information.



                                              24
the Chief of CD-4, however, if Edmonds' allegations were made today, they
might still be investigated by the Security Office. But he said that at a
minimum the Security Office should consult with CD-4 during the
investigation.


VI.   OTHER ALLEGATIONS

       Edmonds made additional allegations to the OIG regarding the foreign
language translation program. She claimed, for example, that she was directed
to slow down the pace of her work so that material would pile up and the FBI
would have a basis to request more translators.      Edmonds alleged that the FBI
hired an unqualified translator because of his connection to FBI Headquarters'
personnel and subsequently     sent him to translate military interviews despite
his weak language skills. In addition, Edmonds claimed that travel voucher
abuse was condoned and that supervisors improperly received gifts from
subordinates.   In our full report, we reviewed the facts and conclusions
regarding these and additional allegations.    In this section, we briefly
summarize our core findings.

      A.    Alleged Slow Down of Work

        Edmonds alleged that shortly after she began work for the FBI, linguists
were directed to slow the pace of their work so that the material to be
translated would "pile up" and the FBI would have a basis to request more
translators.  Edmonds also said that she was reprimanded     for working too
quickly. Edmonds provided the OIG with the names of several linguists whom
she believed had heard these instructions.

       The persons supervising Edmonds denied ever telling Edmonds or any
other linguist to slow down so that more linguists would be hired. Instructions
to slow down, the OIG was told, only were given if a linguist's pace was
adversely affecting the quality of the linguist's work. The OIG was told that
such an instruction was never given to Edmonds because the quality of her
work was good.

        The OIG interviewed ten linguists who were either named by Edmonds in
her allegations or were named by Edmonds as having information relevant to
her allegations, including those whom Edmonds specifically stated could
corroborate her allegation regarding the alleged instruction to slow down. Only
three of these linguists stated that they recalled hearing about the alleged
instruction   to slow down. Two said they heard the allegation only from
Edmonds.     The third said that she had heard about the slow down instruction
from others in addition to hearing about it from Edmonds, but said she could
not recall who those others were. The other seven denied ever hearing about
such an instruction.


                                        25
        We found insufficient evidence to substantiate Edmonds' allegation that
such time and attendance abuse was condoned or occurred.       Moreover, given
the backlog of translation work at the FBI, we do not believe the FBI would
need to intentionally slow down the linguists' work to support hiring additional
translators.

      B.     Hiring and Assignment     of an Unqualified Translator
       Edmonds told the GIG that the FBI hired a contract monitor based on
the person's personal connections to the FBI, even though he had not scored
high enough on the language tests to qualify for the position. Edmonds also
questioned the fact that this CM was assigned to translate military interviews
despite weak language skills.

        The GIG concluded that the CM was hired and assigned to translate
military interviews even though he did not meet the minimum passing score for
the position. The FBI took this action without following appropriate written
procedures,    and without notifying appropriate officials who supervised the
CM's work, and in a manner that created the appearance         of a conflict of
interest.   Although the CM ultimately demonstrated      that he could meet the
minimum requirements,      we found that he clearly had difficulties with his
written translation work for the FBI. However, it appears that those
supervising the military interviews he helped to translate were satisfied with
his translation work.

      c.     Travel Voucher Fraud

       Edmonds alleged that a supervisor made arrangements        for two linguists
to "switch" work locations, at FBI expense. FBI travel records reflect that on at
least three occasions, two linguists who translate the same language did
"swap" work locations at FBI expense. These three "temporary duty"
assignments   cost the FBI over $35,000 in travel reimbursements.

         After initially asserting that the swap was necessary for proper coverage
of the translation work of the office, the FBI supervisor could not explain why it
was necessary to have both linguists travel at such expense, when the
translation work of the two linguists could have been moved from one location
to the other over the FBI's computer system. He provided to the GIG an EC in
which, he stated, his supervisor approved this arrangement.       The document,
however, is dated many years earlier and refers to one 60-day temporary duty
assignment      for a linguist who had been working on the same project years
earlier.

        Edmonds alleged that this "swapping" arrangement    was due in part to
favoritism on the part of the supervisor. One linguist told the OIG that he had

                                        26
also heard rumors of favoritism. The supervisor adamantly denied any
favoritism towards any of the linguists. No other witness stated that he heard
similar rumors, and the OIG found no other evidence of any such favoritism.

        We believe that the arrangement  was wasteful. At the time these two
linguists swapped places, other linguists were available to handle this work in
both locations. We do not believe the EC provided to us by the supervisor
applies to the time period in which we found evidence of wasteful travel.
Moreover, the supervisor provided no explanation for the failure to use the
FBI's computer system to send the work electronically between offices.

      D.     Additional      Travel-Related        Allegations

        Edmonds made additional allegations related to misuse of travel
vouchers.    She claimed, for example, that some linguists had gone to a distant
location to attend a concert and had been improperly reimbursed by the FBI for
this travel. She did not identify the particular linguists. The OIG examined
FBI travel records and found that only one linguist traveled at FBI expense to
the location of the concert during the relevant time period, but this linguist
stated that he did not attend the performance.     We reviewed documentation
that supported this linguist's assertion that this was a legitimate business trip.

       Edmonds also alleged that a supervisor traveled to particular cities at
FBI expense in order to attend a seminar, visit a sick relative, and visit other
family members.   The OIG reviewed the supervisor's travel records dating back
to October 1, 1999, and found no trips to the cities mentioned by Edmonds.

        Edmonds also claimed that when another linguist traveled to perform
translation work, a supervisor permitted him to stay through the weekend at
FBI expense so that he could do some personal shopping and bring items back
for the supervisor.  FBI travel documents reflect that at the time Edmonds
made her allegations, the linguist in question had made two trips to the
location Edmonds cited, at FBI expense. On one of those trips, the linguist
stayed over on a Friday night and returned the next day. The FBI paid for the
hotel on Friday night. FBI records show that the linguist worked until 5:00
p.m. If he had returned that day, he would have arrived late in the evening.
He therefore stayed overnight and returned on Saturday.       He acknowledged
buying gifts while he was on the trip to give to the supervisor and other friends
and co-workers.22 However, the linguist denied staying overnight on Friday for
the purpose of shopping for himself or the supervisor.    The supervisor denied
sending the linguist on travel to shop.                                   '




      22 The gifts he purchased   are discussed    in the next section.



                                                  27
       In sum, we found the allegations   regarding   travel for concerts,   shopping,
or family visits were unsubstantiated.

      E.    Improper Receipt of Gifts by Supervisors

       Edmonds alleged that FBI language supervisors received expensive gifts
from subordinates.    The only specific example she provided to the GIG was
that, on his return, the same linguist who she said had been permitted to stay
on travel so that he could shop brought back sets of ladies' and men's watches
for the supervisors.  Edmonds said the linguist had told her that the watches
cost him $135, and that the supervisor who approved the extension of the
travel asked the linguist to give the same sets of watches to the other
supervisors so that "no one will ever talk." Edmonds said that the linguist also
gave her a set of the watches, but she returned them.

        The linguist told the GIG that he bought several sets of the watches while
he was on the trip, for $10 each, and that he gave the sets to Edmonds, three
supervisors,   and a Special Agent. He denied telling Edmonds that the watches
cost $135, and denied saying that a supervisor instructed him to give the same
gift to other supervisors so that no one would talk.

       The GIG was unable to determine the specific value of the watches, but
they do not appear to be expensive watches. We found that the same brand of
watches was advertised on the Internet for $4.90 per set. In addition, ajeweler
told the GIG that the watches do not contain a karat mark, indicating that they
do not contain any gold. The jeweler said that he had seen similar watches for
sale by street vendors. He estimated that the watches could be worth
anywhere from $20 to $100.

        The GIG interviewed ten linguists and four supervisors who work in the
same office. None told the GIG that subordinates     gave "expensive" gifts to
supervisors.    Several witnesses stated, however, that linguists frequently gave
their supervisors and colleagues small food items or trinkets that they had
purchased while traveling on FBI business.     A supervisor told the GIG that he
had received from the linguists under his supervision many such items,
including key chains, shot glasses, worry beads, brass plates, coffee mugs, a
clock, and a stone from the Berlin Wall. The supervisor told the GIG that he
always tells the linguists that he cannot accept a gift worth more than $20.
Another supervisor told the GIG that he had accepted small gifts from the
linguists because to refuse them would be a "cultural affront" and the linguists
are aware that the gifts must cost less than $10.

       The FBI MAGP provides that a supervisor may not accept a gift from a
subordinate  employee who receives less pay than the supervisor.  A supervisor
may accept from subordinates  voluntary gifts of a nominal value made on a
special occasion such as marriage, illness, or retirement. A supervisor may

                                          28
also accept gifts worth less than $10 on "on an occasional basis, including any
occasion on which gifts are traditionally given or exchanged," such as holidays.
MAOP, Part 1, Section 13.1. This provision of the MAOP is the same as the
DOJ regulation prohibiting gifts from subordinates    to supervisors.
5 C.F.R. § 2635.302 and 304.

       We found insufficient evidence to substantiate    Edmonds' allegation that
a supervisor received expensive gifts from subordinates.      We also found that
the practice of giving gifts to supervisors was widespread in LSS, was not
limited to special occasions such as marriage, illness, or retirement, and
occurred on more than "an occasional basis." Although we found no proof that
supervisors received items worth more than $10 on any occasion, we believe
the commonplace acceptance of gifts from subordinates       violates the FBI MAOP.
Indeed, the commentary to the DOJ regulation upon which the MAOP provision
is based specifically states that an employee "whose job responsibilities   require
frequent travel may not bring her supervisor, and her supervisor may not
accept, souvenir coffee mugs from each of the cities she visits in the course of
performing her duties, even though each of the mugs costs less than $5. Gifts
given on this basis are not occasional."    26 C.F.R. § 2635.304(a), Example 2.
Accordingly, we believe the FBI should instruct supervisors and linguists to
stop the practice of supervisors accepting gifts from linguists.

        F.     Unauthorized        Disclosure     of Information         to Congress

       The OIG also received an allegation from the FBI of a possible
"unauthorized   disclosure of classified information to a congressional  staffer."
The OIG found that on June 17,2002, the Section Chief of the Personnel
Security Section in the Security Division conducted a briefing regarding
Edmonds' allegations for congressional     staff members.  Because one of the
congressional  staff members present lacked the appropriate security clearance,
the briefing was unclassified.   The Security Section Chief inadvertently used a
term which, according to the FBI, could have the effect of revealing classified
information. 23

        We found that the Security Section Chiefs use of the term during the
briefing was inadvertent.  However, we believe this incident demonstrates  the
problems inherent in attempting to "talk around" classified information.




          23 This briefing recently has become the subject   of congressional   complaints   regarding
retroactive classification of information by the DOJ.



                                                 29
VII.   EDMONDS' CLAIM OF RETALIATION

       As described in this report, on March 22,2002,     an FBI manager notified
Edmonds that her translation services would no longer be needed and took her
access badge from her. On April 2, the FBI sent a letter to Edmonds
terminating her contract as of March 26. Edmonds has claimed that her
termination was in retaliation for her raising allegations of misconduct to the
FBI.

       Edmonds does not qualify for "Whistle blower" status under the FBI
Whistleblower regulations because she was a contractor, not an FBI employee.
See 28 C.F.R. § 27.1(a). However, in examining the question of whether the
FBI retaliated against Edmonds because of her allegations of misconduct, we
used the principles underlying these regulations.

        Pursuant to these regulations, the FBI cannot take a personnel action
against an employee in retaliation for any "protected disclosure" the employee
has made. 28 C.F.R. § 27.2. For a disclosure to be "protected" under the
regulations, it must be made to the OIG, DOJ OPR, FBI OPR, the Attorney
General, the Director of the FBI, the Deputy Director of the FBI, or the highest
ranking official in any FBI field office. 28 C.F.R. § 27.1(a). In addition, the
employee making the disclosure must reasonably believe the disclosure
evidences a violation of law, rule, or regulation; mismanagement,        a gross waste
of funds, an abuse of authority; or a substantial      and specific danger to public
health or safety. 28 C.F.R. § 27.1 (a). The complainant       has the burden of
showing by a preponderance        of the evidence that her protected disclosure was
a contributing    factor in the decision to take the personnel action. Once that
showing is made, the burden shifts to the agency to show by clear and
convincing evidence that it would have taken the personnel action against the
complainant     in the absence of the protected disclosure.    Id. at § 27.5(e)(2).

        Edmonds' allegations would clearly qualify as protected disclosures
under the FBI Whistleblower regulations.    Thus, the key issue would be
whether her disclosures were a "contributing factor" in the termination of her
services. Under the Whistleblower regulations, the FBI would have to prove by
clear and convincing evidence that it would have taken the same action absent
her disclosures.

        We believe the evidence indicates that the FBI could not show, by clear
and convincing evidence, that at the time the decision was made it would have
terminated Edmonds' contract absent her disclosures.      According to an EC
from an FBI manager that summarizes the reasons for terminating Edmonds'
services, the FBI's primary reasons were that she represented    a "disruptive
effect" on operational matters and her "documented" mishandling of classified
information at her residence.



                                          30
        The mishandling of classified information on her home computer related
to Edmonds' writing, at her supervisor's request, a memorandum       describing
her allegations of misconduct and including classified information in that
memorandum.       However, a Security Official told the OIG that he did not believe
the Security Office had enough information to "fire" Edmonds based on her
security violation of processing classified information on her home computer.
Similarly, the Security Officer who conducted the investigation told the OIG he
did not view Edmonds' security breach as intentional and said the FBI did not
intend to pursue administrative     charges against Edmonds for the violation.

        Rather, the primary reason for the FBI's termination of Edmonds related
to the claim that she had a "disruptive effect" on operational matters. This
disruption related primarily to Edmonds' aggressive pursuit of her allegations
of misconduct, which the FBI did not believe were supported and which it did
not adequately investigate.   In fact, as we described throughout our report,
many of her allegations had bases in fact and should have been more
thoroughly investigated by the FBI. We believe that the FBI's failure to handle
her allegations adequately contributed to Edmonds' increasingly vociferous
complaints, which ultimately led to the termination of her services.

        We also recognize that Edmonds was not an easy employee to manage,
and that some of her complaints, based on her self-initiated reviews, were
unsupported    and a distraction to her supervisors.    Edmonds also aggressively
asserted her opinions about the management        of the translation program, which
was frustrating to her supervisors.   But we believe that many of her allegations
were supported, that the FBI did not take them seriously enough, and that her
allegations were, in fact, the most significant factor in the FBI's decision to
terminate her services.

        In addition, the FBI has not asserted that Edmonds' contract was
terminated because it had no further need of her services. In fact, the Chief of
LSS told the OIG that there has been no reduction in the need for linguists to
translate the language Edmonds translated.      Indeed, at the time Edmonds'
services were terminated, there remained a need for such services.

        We also believe the FBI could have handled the matter much more
effectively than it did. For example, as an LSS Unit Chief suggested, the FBI
could have moved Edmonds to another location while it pursued a thorough
investigation of Edmonds' allegations.   Had it done so, the "disruptive effect" on
operational activities created by Edmonds' persistent complaints could have
been avoided or at least minimized.

       In sum, while Edmonds does not fall within the protection of the FBI's
Whistleblower regulations, we believe that the FBI significantly mishandled this
matter. The FBI should not discourage employees or contractors from raising
good-faith allegations of misconduct or mismanagement. By terminating

                                         31
Edmonds'services, in large part because of her allegations of misconduct,                            the
FBI's actions also may have the effect of discouraging others from raising
concerns.24


VIII. OIG RECOMMENDATIONS

       In light of the issues that we examined in this case, particularly the
issues relating to Edmonds allegations regarding the co-worker, we are
providing systemic recommendations       to the FBI in an attempt to help it
improve its foreign language translation program.25

        1.     The FBI should consider having an employee from the LSS or a
               case agent from the relevant squad interview CLs before they
               are hired by the FBI. The FBI's hiring process for CLs includes
               both language testing and a full background investigation.
               Although the background investigation includes a Personnel
               Security Interview designed to obtain information relevant to the
               security clearance, CLs are not interviewed by employees from the
               LSS or operational agents before being hired. As a result, the
               supervisors of CLs or CMs never have an opportunity to meet with
               the linguist and explore any issues relating to their qualifications
               and background.     While we recognize that these linguists are used
               on a contract basis only, we believe the FBI should consider
               including an interview during the hiring process for CLs and CMs.
               Such an interview could include the applicant's future supervisor
               or a case agent from a relevant operational squad.

       2.      The FBI should establish written guidelines for when risk
               assessments     should be performed in background
               investigations.    The FBI failed to conduct a risk assessment      of
               the co-worker during her background investigation.         We believe
               the FBI should create written guidelines that clearly state the
               factors to be weighed when deciding whether a risk assessment      is
               necessary in a particular case.

       3.      The FBI    should provide written guidelines to linguists to assist
               them in    reviewing materials.    The CLs we interviewed said they
               received   oral training from case agents and other linguists.
               However,    they did not receive any written guidance regarding

         24 In response to a draft of this report, the FBI expressed disagreement with this
conclusion.    A copy of the FBI's response to the OIG is attached as Appendix C.
         25 One recommendation   was removed in its entirety   because   it contained   classified
information.



                                                32
     reviewing materials.    We recognize that many cases are different,
     and what applies to one case may not apply to another, but we
     believe that generalized guidance would be useful to help ensure
     that CLs have a common understanding       of their work
     requirements   when reviewing materials.    We recommend that
     general guidelines be provided to all linguists, in writing, when
     they are hired by the FBI.

4.   The FBI should ensure that supervisors determine the
     assignment    of material that linguists will review. The FBI
     should ensure that supervisors assign material for linguists to
     review. Failure to assign material creates potential security risks
     and also contributed to the conflict that arose between linguists in
     this case. We were told by Language Services Section supervisors
     that these decisions should not be left to the linguists.

5.   The FBI should establish a uniform policy with regard to work
     assignment     sheets for linguists.   In the LSS, work assignment
     sheets that should contain the signatures of the translator,
     reviewer, and editor who worked on a particular translation are
     destroyed after the information is entered into a database.    We also
     were told that the practice with respect to the signatures on these
     forms is not uniform. For example, some individuals only put a
     checkmark by their name when they complete the assignment,
     while others simply forward the sheet without marking it in any
     way . We recommend that the FBI establish and enforce a uniform
     policy requiring signatures on work assignment      sheets, and that it
     maintain those sheets for a reasonable period of time so that
     issues relating to a particular translation can be addressed
     adequately.

6.   The FBI should implement a system to track which linguist
     reviews which material. We found that, because of resource
     issues, more than one linguist may be assigned to a particular
     task. While the LSS computer system keeps track of the last
     person to work on a particular task, that information may be
     overwritten or lost if a second person later works on the same task.
     Although the work product of an individual linguist provides some
     indication of which tasks that linguist carried out, there is no
     method to establish, with certainty, which linguist reviewed which
     material.

     A Language Services supervisor stated that one of the linguists he
     supervises had developed a practice of keeping track of all the
     material he reviews. The supervisor said that when the linguist
     finishes work each day, he transfers this information to the

                                 33
            relevant case agents along with the other work completed.     In this
            manner, the agents have a clearer picture of the case. In addition,
            the supervisor said that extending this practice might cause less
            attentive linguists to take more care in their work. We recommend
            that the FBI consider implementing this or some other practice to
            ensure that the FBI has a record of work completed on a particular
            task. In addition, the FBI should evaluate the feasibility of
            installing audit trails to preserve a record of each person who
            worked on a particular task.

      7.    The FBI should reinforce ethics rules regarding gifts to
            supervisors.    We found that the practice of giving small gifts to
            language supervisors was widespread, and was not limited to
            special occasions such as marriage, illness, or retirement.    We
            believe the FBI should reiterate the ethics rules regarding gifts and
            specifically instruct language supervisors and linguists to stop the
            practice of supervisors regularly accepting gifts from linguists.


IX.   CONCLUSION

        The majority of the allegations raised by Edmonds related to the actions
of a co-worker. The allegations raised serious concerns that, if true, could
potentially have extremely damaging consequences      for the FBI. These
allegations warranted a thorough and careful review by the FBI.

        Our investigation concluded that the FBI did not, and still has not,
adequately investigated these allegations.     Our review also found that many -
although not all - of Edmonds' allegations about the co-worker had some basis
in fact. This evidence does not prove, and we are not suggesting, that there is
sufficient evidence to conclude that espionage or any improper disclosures of
FBI information occurred.      However, we believe the FBI should have taken
Edmonds' allegations more seriously and investigated them more thoroughly.
As discussed in this report, the FBI's investigation of the information regarding
the co-worker was significantly flawed. Had the FBI investigated the claims
thoroughly, it would have found that many of Edmonds' allegations regarding
the co-worker were supported by documentary         evidence or other witnesses.
Instead, the FBI seems to have discounted Edmonds' allegations, believing she
was a disruptive influence and not credible, and eventually terminated her
services. Even now, the FBI has not carefully investigated the allegations
about the co-worker to determine if the co-worker compromised any FBI
information.   In light of the need for FBI vigilance about security issues, as
demonstrated    by the Hanssen case, we believe the FBI should have
investigated these serious allegations more thoroughly.




                                        34
        Edmonds also alleged that the FBI retaliated against her by terminating
her services as a CL. We concluded that Edmonds' allegations were at least a
contributing    factor in why the FBI terminated her services. We recognize that
the FBI Whistle blower regulations do not apply to Edmonds because she was a
contractor rather than an FBI employee. We also recognize that her varied and
insistent allegations of misconduct may have been frustrating, and that not all
of her allegations were true. However, many of her allegations had a basis in
fact, and the way the FBI responded to her allegations contributed to her
persistent claims. Moreover, we believe the FBI should not discourage
employees or contractors from raising good-faith allegations of misconduct or
mismanagement        and the FBI's termination of Edmonds' services may
discourage others from raising such concerns.

       With regard to Edmonds' other allegations of misconduct, most were not
supported by the evidence we reviewed. However, she did raise a valid concern
about unnecessary   travel for certain linguists.

       Finally, our review also found problems in the oversight of FBI CLs. The
FBI needs to more carefully oversee and monitor their work. Towards this end,
we made several recommendations      regarding the FBI's hiring and oversight of
CLs. We believe that the FBI should carefully consider these
recommendations,     which we believe could help improve the operation of the
FBI's language translation program.




                                       35
                                        FEDERAL BUREAU OF INVESTIGATION

                                                                                                   -           CMI101'ITA"

                                                                                                   -        INSl"ECnoM
                                                                                                                     0Iv.0N

                                                                                                   -             CII'PICa
                                                                                                                       0#
                                                                                                                  UC.,,""'s

                                                                     DIRECTOR
                                                                                                   -      COHGAIUIOH""AI"AlRI
                                                                                                               OI"'ICE
                              SACAOIJI50"V
                                  couwmu                      ..................                        CFf'1CI 0# THI OUI\JOtfoMN
                          I                        I.......
                                                              DEPUTYDIRECTOR                       ..       0I'f'U     0J1IOENEIW.
                                                                                                                     COUNSn.
                                                                                                              OFACC OIFEQU-.L
                                                                                                         E.....OV\IEN' c.-T1JNITY

                                                                                                        CMIU             'nON Cljl'FlCI"


                                                                                                   ..     0Ft'ICE
                                                                                                                0J1I         .
                                                                                                                 Sf"Cft-.nY


          I                         I                                                                                                                                  I
                          EX£QJTM ASS8STAHI'                    IEXECUTIV!ASS/ISTIIHf                            DCEClnIYE ASSIsTANT                      PECUTM        ASSISTANT
DECUTlV!      TAHI'          DIRECTOR FOR                           DlRECTOA ,:(JA                                  OIAECTOA FOR
   OIFIECTOAFOR                                                                                                                                                         OA FOR
                          COIMTEAo TEAAOAI5'N                          CRUPW.                                     LAW ENFORCEMENT                              .ta.IHSTAA TION
   MELlIOENCE                                                      1NV£.ST1QA
                                                                            nONS                                      SERVICES
                                  A-MEUJOENCE


                                                                                        OFFICE01' lWt E.
                                                                                          IoF.NTOOOROHAnoN              I-
                                                                                                                                                                                    I
                                                                                        OFFICI 0# 1NrEAHA
                                                                                               Of'EIUTIOHS
                                                                                                                        I-           r
                                                                                                                                          0Ff1C.EOIFS1RAnGIC
                                                                                                                                               fI\NHNQ           J-           RECOfOS
                                                                                                                                                                            WlHAGOoIEN1'
                                                                                             CMIC-.&.INCIOEHT
                                                                                             "UI'ON$( GAOVP             J-                                                     DMS80N


                          I                    I                 I                 I                             r                          I              I                   I
                                                                                              ,.
    oce       OF       COUfTtAo           CClUNT'!A-           CY8EA            CRlUiNAi,
                                                                                                            TRAINING                     eoIUTORY
                                                                                                                                                    ACtoINSTAA   TNt       SECUf'ITY
                      TtRAOASW          IN'fB..1.IOENCE                     1PM!S'nGA TlVE                                                             SEAYICES
   HT'B.1JGEtCE
                       OMSION              CMseON             DMSION            CWIIIStON                   DMSlON                       DMSION         CMSION              DMSION

                                                                                                                 I                          I              I                   I
                                                                                                                                                                                           >
                                                                                                                                                       'IPWCI                              "'I:S
                                                                                                          -ORWIonoH                  TEC:HNC100Y       DIVISION                            "'='
                                                                                                        8EIIIIVICES
                                                                                                        G""" [)M8I()tI           I     DIVISION
                                                                                                                                         no-.TIWII                   I r I==
                                                                                                                                                                           OMSION           ftI
                                                                                                                                                                                            ::s
                                                                                                                                                                                            =-
                                                                                                                                                                                            $C'
                                                                                                                                                                                            >

                                                                                -~~~                                  J04H
                                                                                                                         ASHCAOn,                                 3-<7«-04-
                                                                                                                                                                        . /
                                                                                                                 Appendix         B




FBI LANGUAGE SERVICES SECTION

                                        SECTION CHIEF




          LANGUAGE SERVICES                     APPLIED LINGUISTS                        ADMINISTRATION, BUDGET
              ASSISTANT                                                                       & CONTRACTING
                                                                                               Program Manager


         LANGUAGE SPECIALIST
              PROGRAM


        SPECIAL AGENT LINGUIST
               PROGRAM
                                   1           LANGUAGE TRAINING
                                                   PROGRAM


                                                FOREIGN LANGUAGE
                                                RESOURCE CENTER
                                                                                                    CONTRACT LINGUIST PROGRAM
                                                                                                          FINANCIAL MNGT


                                                                                                        BOAs, WORK ORDERS,
                                                                                                     CERTIFICATIONS & RENEWALS


         LANGUAGE SERVICES
         TRANSLATION CENTER
          Superviso<y Translator


 DEPLOYMENT   PROGRAM
                                              ASSESSMENT, RESEARCH
                                             AND TEST ADMINISTRATION
                                                    PROGRAM
                                                  Program Manager



                                                 ASSESSMENT         AND   RESEARCH
                                                                                         &               CL INVOICE VOUCHER
                                                                                                        PROCESSING; OVERTIME
                                                                                                      REOUESTS; ADMIN SUPPORT




                                                                                                          PROGRAM SUPPORT


                                   j1l
                                                 FOREIGN      LANGUAGE         TESTING
                                                             SPECIALIST

          TRANSLATION STAFF

                                   I;                TEST     ADMINISTRATION                RESOURCE ENHANCEMENT
                                                                                              & STRATEGIC PLANNING




                                                                                         "
                                                                                               PROGRAM MANAGER




                                     ~                     TEST   ADMINISTRATION
                                                                  ASSISTANTS
                                                                                                            CL RECRUITMENT
                                                                                                     & BACKGROUND    PROCESSING


                                    ~
                                    81                                                      LANGUAGE AUTOMATION
                                                                                             SUPPORT & OUTREACH




                                                                                     itIi
          CONTRACT LINGUISTS
                                                                                                         Appendix   C


                                                         U.S. Department of Justice


                                                         Federal Bureau of Investigation


                                                         Washington,   D. C. 20535-000   I


                                                         June 30, 2004




Honorable Glenn A. Fine
Inspector General
Department of Justice
Room 4322 Main
950 Pennsylvania Avenue, Northwest
Washington, D.C. 20530
Dear Mr. Fine:

                This letter is in response to your draft report on Sibel Edmonds. First, I disagree
with your conclusion that Edmonds, a private contractor, was retaliated against for her making
allegations of misconduct or mismanagement. Edmonds was terminated from the FBI because
she committed security violations and was a disruption to her office. Second, the FBI thoroughly
investigated this matter and determined that retaliation was not the basis of her termination.
Your report makes reference to her "increasingly vociferous complaints," and found "insufficient
evidence" to substantiate multiple additional allegations made by Edmonds. Under the totality of
the facts and circumstances, the FBI wasjustified to terminate her contract and did not retaliate
against her.

              The Director has testified before Congress, and has communicated to all
employees in the FBI, that he will not tolerate retaliation.
                 Please feel free to contact me at   I
                                                                         should you require additional
information.

                                                         Sincerely yours,
                                                          S-C ~               ('a/\.-.
                                                         Steven C. McCraw
                                                         Assistant Director
                                                         Inspection Division
